   Inspection and Evaluation
           Committee




President’s Council on Integrity and Efficiency
Executive Council on Integrity and Efficiency


         2003
         2003 Annual
              Annual Report
                     Report
Contents

Message from the Chair                      3


Inspection and Ev aluation Committee
               Evaluation  Committee



           Goals                            4


           Members                          5


           News                             7


           Year at a Glance             10


           Honor Roll                   12


           Work in Progress             16


           Outreach                     18


           Potential Projects           19





                                        1
“As we have worked together over the
past year, I have time and again been
impressed by your commitment to the
goals of the IG Act and the mission of
this committee, and by the invaluable
contributions that have resulted to the
benefit of OIGs throughout the federal
government.”

               ~ Johnnie Frazier




                                          2
                                     UNITED STATES DEPARTMENT OF COMMERCE
                                     The Inspector General
                                     Washington, D.C.20230



                                                                  March 2004


MESSAGE FROM THE CHAIR,

INSPECTION and EVALUATION COMMITTEE



Inspection and Evaluation Committee 2003 Annual Report

This past year marked an important milestone for the IG community: the 25th anniversary
of passage of the Inspector General Act—our mandate for making government work
better. Each of us can take pride in the accomplishments of our individual offices and the
good works they have wrought in our respective agencies through the years. Yet I believe
some of our greatest achievements have been borne of our collaborative spirit, and in this
regard the dedicated members of the PCIE Inspection and Evaluation Committee have
much of which to be proud.

As we have worked together over the past year, I have time and again been impressed by
your commitment to the goals of the IG Act and the mission of this committee, and by the
invaluable contributions that have resulted to the benefit of OIGs throughout the federal
government. This “annual report” features some of those accomplishments for 2003—
such as the travel card guide, purchase card guide, and I&E survey. Equally important,
it highlights continuing opportunities for collaboration, as well as work in progress and
some of the challenges we share in improving I&E processes throughout the IG community.
To this end, our efforts to update the PCIE Standards for Inspections are critical: these
Standards have been in place for more than a decade and are in many instances out of sync
with current I&E needs and practices. Our completion of this task should be a priority for
2004.

As you read these pages, congratulate yourselves for a job well done, consider how best to
accomplish the work before us, and accept my thanks for the privilege of serving as chair
of the I&E Committee. I look forward to the year ahead and our mutual pursuit of
excellence.




Johnnie Frazier




                                                                                  3

       I&E
Committee... Goals
The primary goals of the Inspection and Evaluation (I&E) Committee
are to

       (1)	    promote effective inspection and evaluation
               practices and insights, and

       (2)	    develop better ways to address and
               communicate inspection and evaluation findings
               on crosscutting or government-wide issues.

The Committee also seeks to provide positive contributions to the
inspector general community by improving inspection and evaluation
methodologies and providing or developing training to enhance the
analytic and administrative skills of OIG inspectors and evaluators.

Committee members include the Inspectors General from the Depart
ments of Commerce, Homeland Security, Veterans Affairs, Justice, and
Labor, the National Science Foundation, and the Farm Credit Adminis
tration, as well as the Acting Principal Deputy Inspector General from
Health and Human Services. The Committee is effectively supported
by the Inspections and Evaluation Roundtable, whose members include
the Assistant Inspectors General or other OIG
officials who have responsibility for conduct-
ing evaluations and inspections in their re
spective agencies. Both the Com
mittee and its Roundtable have
undertaken a number of
projects and initiatives during
fiscal year 2003.


                                                              4
   E ttee
 I&
Co
  mmi

  M
         JOHNNIE FRAZIER
              COMMERCE, CHAIR
                                RICHARD GRIFFIN
                                VETERANS AFFAIRS

  E
  M
  B
  E
  R
  S
        CLARK KENT ERVIN GORDON S. HEDDELL
            HOMELAND SECURITY        LABOR




                                             5
   E ttee
 I&
Co
  mmi
                   April
    M
            CHRISTINE BOESZ
    DARA CORRIGAN

            NATIONAL SCIENCE
   HEALTH AND HUMAN

              FOUNDATION
           SERVICES


    E
    M
    B
    E
    R         STEPHEN SMITH
               FARM CREDIT
                                   GLENN FINE
                                     JUSTICE

    S         ADMINISTRATION




                                               6
       I&E
Committee... News




I & E SURVEY


The survey report—issued in March 2004—profiles the 26 inspection
and evaluation units that currently are working as distinct units within federal
Offices of Inspector General. It was prepared by the Inspections and
Evaluation Roundtable at the request of the Inspection and Evaluation
Committee. HHS OIG had the lead on this project.

The report covers the makeup and function of these units, and highlights
some of their recent work. Information from the survey can be used to
(1) illustrate crosscutting issues of concern to different OIGs, (2) provide
ideas for future OIG work or internal OIG management initiatives,
and (3) educate others—especially new inspectors general and those
interested in establishing evaluation units—about the value of having
inspections and evaluation units to aid OIGs in their mission.


                                                                         7
       I&E
Committee... News
TRAVEL CARD GUIDE

Aware of the problems and in some cases
outrage concerning abuses associated with
government travel cards, a best practices
travel card guide, Common Problems and
Uncommon Solutions: How OIGs are
Helping Improve Federal Travel Card
Programs, was issued in December
2003. The guide synthesizes the results
of travel card program reviews from 25
OIGs. But more important, it is offered as a primer that in
very brief and simple terms highlights the most common problems
identified by some OIGs while concurrently offering some proven
solutions and best practices for fixing or avoiding these same problems.
In addition, this publication incorporates other useful information about
such matters as (1) the terms and conditions of GSA’s Master Contract
for the federal travel card program, (2) guidance that should be
consulted in assessing a travel card program, (3) GAO’s Standards
for Internal Control in the Federal Government, and (4) the roles
and responsibilities of parties involved in the federal travel card
program.

While several OIGs participated in the development of this project,
special thanks are due to the Department of Labor’s Office of Inspector
General for taking the lead and to the Commerce OIG staff who
worked to finalize and prepare it for publication.


                                                                 8
 I&E
Committee... News
              AILY
          I&ED
                                 VE
                          TO SER
                FRAZIER       E
        JOHNNIE      M AS I&
                T ER
        SECOND         H A IR
                 TE E C
         C OMMIT




                                                    I&E
                                                                      DAI
                                       SPECIA                            LY
                                       C H A IR L THANKS
                                               , I&E      TO J
                                      HER
                                            ST A     R O U N ILL G RO
                                                   FF F               S
                                                                    DTA           S
                                      EFFO              OR               BLE
                                             RTS             THE              AND
                                                                   IR E
                                                                        XTR
                                                                            A




        I&E
                   DAI
  CLAR
                      LY
  A PPO K ENT ER
        K
       INTE        VIN
            D IG
                 FOR
                      DHS




                                                    I&E
                                                                      DAI
                                       Next                              LY
                                            Q
                                      Thur uarterly
                                           sd        I&E
                                      By D ay, April       R
                                          oD O       29, 20 oundtable
                                               IG          04 Ho
                                                                 sted




           AILY
       I&ED
                             T I&E
                  HOST NEX
        DOL TO           EE TI NG
             M IT TE E M
        C OM




                                                                                      9

 January 2003
  �On-line purchase & travel card project
   announced.
                                                  I&E
                                              Committee...
  �I&E Survey start-up announced.
                                              Year at a Glance
  �Draft Travel Card Guide reviewed.



        February                                            Mar ch
                                                            March
 �I&E Roundtable meeting at NASA              �I&E Committee Chair presents the 2002
  cancelled due to Columbia disaster.          Report Card on I&E Committee activites at
                                               PCIE/ECIE retreat in St. Michaels, MD.
 �I&E Survey data call issued.
                                              �Committee website improved—monthly
 �On-line directory of purchase and travel     newsletters added.
  card reports data call issued.
                                              �Work continues on on-line directory project.


              June                                           July
 �I&E Roundtable held at NASA on June 5.
                                              �Energy OIG takes lead in Quality
 �Three new members welcomed to I&E            Standards for Inspections update.
  Roundtable.
                                              �I&E Survey responses include suggested
 �I&E Committee meeting held at                crosscutting topics on security, training,
  Homeland Security on June 11.                IT, and emergency preparedness.




            October                                   November
�I&E Roundtable meeting held at EPA OIG.
                                              �125 reports available via on-line directory
�PCIE Human Resources Committee held           (www.ignet.gov).
 focus group session at Roundtable meeting.
                                              �26 units included in I&E Survey report.
�Two new members welcomed to I&E
 Roundtable.                                  �Draft Travel Card Guide reviewed.



10
      Committee...   I&E
    Year at a Glance

          April                                        May
�Individual requests and inquiries received   �I&E Survey responses continue to be
 on establishing new I&E inspection units.     received.

�I&E Committee continues to work with         �136 reports submitted to date for on-line
 IGATI to develop training courses.            directory.

�I&E Survey work continues.                   �VA IG delivers presentation on I&E
                                               Committee for new IGs.


          August                                 September
 �Energy OIG request for comments on          �IGATI training opportunities communi
  Quality Standards for Inspections sent to    cated to Roundtable members.
  I&E Roundtable.
                                              �Preparation begins for upcoming
 �Availability of on-line directory of OIG     Roundtable meeting.
  Purchase and Travel Card usage reports
  announced.



       December                                  January 2004
  �Travel Card Guide issued.                  �NSF OIG hosts joint meeting of I&E
                                               Committee and Roundtable.
  �DOC OIG hosts 2-day writing course
   and includes Roundtable members.           �Final draft of I&E Survey distributed for
                                               review and comment.
  �Clark Kent Ervin appointed IG for
   Department of Homeland Security.           �Presentation on Misconduct in Scientific
                                               Research delivered at joint meeting.

                                                                                      11
    I&E
Committee... Honor Roll

PCIE AWARDS FOR EXCELLENCE ~ EVALUATIONS


                         DoD Fire and Emergency Services
                         Programs Evaluation Team

                         Citation: For exceptional performance on the
                         evaluation of DoD fire and emergency
  Award for Excellence   services programs subsequent to the events
                         of September 11, 2001.

                         Intelligence Support to Personnel
 Department of Defense
                         Recovery Evaluation Team
        2003             Citation: For conducting an exhaustive
                         evaluation and presenting significant findings
                         and recommendations for improving the
                         efficiency and effectiveness of intelligence
                         support to personnel recovery operations.




                         Office of Inspections

                         Citation: This award recognizes the timely
                         and outstanding efforts of the Office of
                         Inspections in working to enhance the
  Award for Excellence   safeguards and security of the
                         U.S. Department of Energy.

 Department of Energy

        2003


                                                           12
   I&E
Committee... Honor Roll

PCIE AWARDS FOR EXCELLENCE ~ EVALUATIONS


                          Aviation Security Technologies Audit Team

                          Citation: In recognition of outstanding
                          contributions to aviation security by identify
                          ing and categorizing proposed technologies
   Award for Excellence   that have the potential for improving aviation
                          security.
       Department
    of Transportation


         2003




                          Puerto Rico Department of Education Team

                          Citation: This award recognizes the team for
                          outstanding audit and investigative work,
                          which led to the successful federal prosecu
   Award for Excellence   tion of former Puerto Rico Department of
                          Education officials who conspired to extort
      Department          and obtain approximately $4.3 million from
      of Education        contractors in exchange for contracts valued
                          at $138 million.
         2003


                                                               13
   I&E
Committee... Honor Roll

PCIE AWARDS FOR EXCELLENCE ~ EVALUATIONS

                           Detainee Review Team

                           Citation: In recognition of their exceptional
                           efforts on their review of the treatment of aliens
                           detained in connection with investigation of the
    Award for Excellence   September 11 terrorist attacks.

       Department          FBI Hanssen Review Team
        of Justice
                           Citation: In recognition of their outstanding
          2003             work and dedication in connection with special
                           review of the Federal Bureau of Investigation’s
                           performance in investigating the espionage of
                           former special agent Robert Philip Hanssen.




                                                             14

   I&E
Committee... Honor Roll

ECIE AWARDS FOR EXCELLENCE ~ EVALUATIONS

                          Telework Report Team

                          Citation: For exceptional performance and
                          outstanding vision and leadership in all phases
                          of the work associated with OIG’s report on
   Award for Excellence   “Reducing Infrastructure Costs Through
                          Increased Use of Telework in Four EEOC Field
    Equal Employment      Offices.”
      Opportunity
      Commission

         2003




                          Employee Benefits Team

                          Citation: In recognition of outstanding
                          achievement by the Employee Benefits
                          Team in using innovative techniques to
   Award for Excellence   ensure the accuracy of employee benefits
                          for Postal Service and the consolidated
   U.S. Postal Service    United States financial statements.

                          Protective Review Program Team
         2003
                          Citation: In recognition of outstanding
                          development and implementation of the
                          Protective Review Program, which provides
                          a systematic method to review sensitive
                          and high-risk activities at local Postal
                          Service facilities and provides valuable and
                          timely feedback regarding office and
                          program management to postal manage
                          ment and the Board of Governors.
                                                              15
    I&E
Committee...Work in Progress

                             REVIEW OF PCIE STANDARDS
                             FOR INSPECTIONS


                            The Committee, primarily with the
                            assistance of the Energy OIG, is updating
                            this important guide. A draft revision will
                            be shared for comment soon.




 CORE COMPETENCIES FOR INSPECTORS AND EVALUATORS

 The I&E Roundtable is working with the
 PCIE Human Resources Committee
 to help develop core competencies
 for inspectors and evaluators.
 Standardized competencies will
 allow staff to move from OIG to
 OIG as well as progress from
 journeyman level to leadership and
 management roles. The Human
 Resources Committee staff previously
 worked with OIG auditors and
 investigators to identify skills needed to
 succeed in their jobs and to develop core
 competencies.


                                                             16
   I&E
Committee... Work in Progress

 TRAINING FOR INSPECTORS AND EVALUATORS

                         The I&E Roundtable is continuing to
                         work with the Inspectors General Au


      O                  ditor Training Institute (IGATI) to ex
                                pand training opportunities for the
                                I&E community. In addition, we


 I
                                are exploring other opportunities


             G                  and innovative approaches to
                                training for inspectors and evalu
                                ators. One example of our suc
                             cess in this area was delivery of a
                          writing course for evaluators at several
           I&E units, including Commerce OIG and the Small
           Business Administration OIG. The course was devel
           oped and taught by HHS OIG staff.




                                                              17
        I&E
Committee... Outreach

OUTREACH TO PRIVATE AND PUBLIC SECTOR GROUPS
The Committee Chair briefed new inspectors general on the use of
inspections as a proven tool at an IG’s disposal. The I&E Roundtable
continues to share findings on crosscutting issues that several OIGs are
addressing (e.g., bioterrorism), select new Roundtable projects, and
identify effective evaluation and inspection practices. The Committee also
provides outreach to private and other public sector groups, and has revised
its website to help its outreach efforts. During the past year this liaison
work has included presentations to the Association of Inspectors General
(state and local), Association of Government Accountants, American
Evaluation Association, and other professional organizations.


ON-LINE DIRECTORY OF OIG PURCHASE

AND TRAVEL CARD REPORTS




 With input from 41 OIGs, the Committee has
 prepared a searchable on-line database of 125
 OIG reports on purchase and travel card
 programs in various federal agencies. This
 is a useful resource to OIGs and agency
 management officials who are seeking to
 review or improve management of purchase
 and travel card programs. The directory will
 be expanded on a regular basis as more OIG
 reports are issued. Commerce OIG had the
 lead on this project. The directory is available
 at www.ignet.gov.


                                                                 18
    I&E
Committee... Potential Projects

                   I&E COMMITTEE
     IS CONSTANTLY EXPLORING POTENTIAL PROJECTS
               WE WELCOME YOUR IDEAS!



              PCIE
             IDEAS                    NO
                                                            Approved
                                                            Projects
          Inspections              Inspection
         and Evaluation          and Evaluation
          Roundtable               Committee



              ECIE                                         Completed
             IDEAS                   YES                    Projects




 POTENTIAL PROJECTS

 1 . 	 OIG reviews of special agreements and memorandums of
     understanding (MOUs) between federal agencies.
 2 . 	 Rotational assignments/internal exchange programs within OIGs.



                                                                  19
      I&E
Committee... Potential Projects

POTENTIAL PROJECTS (CONTINUED)

3 . 	 Compilation of crosscutting work performed by several offices:
            �   physical and personnel security,
            �   disaster preparedness,
            �   procurement/government contracting,
            �   information technology,
            �   overseas inspections, and
            �   visa and immigration concerns.
4 . 	 Report on physical security and disaster improvements as a
      result of the influx of funds after the September 11 attacks.
5 . 	 Lessons learned from agencies’ response to biological incidents.
6 . 	 Exploration of potential conflicts of interest related to the award
      of federal grants.
7 . 	 Shared responsibility for visas—shared by State and Homeland
      Security, and other foreign affairs agencies.
8 . 	 Intelligence sharing—Defense, Homeland Security, and State.
9 . 	 Federal agencies’ oversight and management of their vehicles.
10.
10.	 Assessment of how effectively federal agencies are handling
     workers’ compensation issues.
11.	 Development of a directory of OIG I&E reports by subject.


                                                                   20
